         DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                               Office of Inspector General


                                                                                               Washington, D.C. 20201



                                                                OCT 1 6 2009



TO:	              Charlene Frizzera
                  Acting Administrator
                  Centers for Medicare & Medicaid Services


FROM:             Stuart Wright
                                  /S/
                  Deputy Inspector General
                    for Evaluation and Inspections


SUBJECT:	 Memorandum Report: "Medicare Part D Plan Sponsor Electronic Prescribing
          Initiatives," 0 EI -05-08-00322


This memorandum report describes Medicare Part D plan sponsors' voluntary electronic
prescribing (e-prescribing) initiatives (hereinafter referred to as initiatives) and implementation
strategies to promote e-prescribing adoption. Plan sponsors' initiatives include information
technology and support services that may help defray prescribers' (e.g., physicians') costs
associated with e-prescribing adoption.} While plan sponsors must implement the Centers for
Medicare & Medicaid Services (CMS) defined e-prescribing standards, prescribers and
dispensers are not required to adopt or support e-prescribing. To encourage prescribers to adopt
e-prescribing, some plan sponsors voluntarily offer e-prescribing technology items and services.
As such, we provide this memorandum to inform CMS of plan sponsors' efforts to promote
e-prescribing. We do not make any assessments about the quality or success of these initiatives.

We found that plan sponsors have launched voluntary e-prescribing initiatives to increase
prescriber adoption of e-prescribing. At the time of our data collection in September 2008,
approximately 20 percent of plan sponsors reported that they had an initiative and another
18 percent reported that they were planning an initiative. Over half of plan sponsors with an
initiative reported average or high prescriber participation levels for their initiatives. Finally,
75 percent of plan sponsors with an initiative did not report a quantifiable benefit because they
did not measure outcomes for their initiative. The remaining 25 percent of plan sponsors with an
initiative reported that they measured a quantifiable benefit. These plan sponsors most
commonly reported that their initiative resulted in an increase in generic substitutions and an
increase in formulary compliance.


} As of2003, an entry level e-prescribing system may cost up to $4,500 plus approximately $],500 for annual
support, maintenance, and licensing fees. The Center for Information Technology Leadership, "The Value of
Computerized Provider Order Entry: Executive Preview," 2003. Available online at
http://www.citl.org/research/ACPOE Executive Preview.pdf. Accessed on June 24,2009.


OEI-05-08-00322      Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 2 – Charlene Frizzera


In October 2009, the Office of Inspector General (OIG) released a companion report to this
memorandum, “Medicare Part D E-Prescribing Standards: Early Assessment Shows Partial
Connectivity” (OEI-05-08-00320). That study assessed plan sponsors’ implementation of
CMS-required e-prescribing standards to support connectivity with prescribers and dispensers
(e.g., pharmacies). We found that nearly 80 percent of plan sponsors reported at least partial
e-prescribing connectivity but few reported complete connectivity.

BACKGROUND

E-prescribing occurs when a prescriber uses a computer or an electronic hand-held device, such
as a personal digital assistant, to write and send a prescription directly to a dispenser. Before a
prescriber sends a prescription to a dispenser, he or she can request electronic data regarding
patient eligibility, formulary and benefits, and medication history from the patient’s health
insurance plan.

Prescriber access to prescription information, such as medication history and formulary
information, has several potential benefits. With access to medication history, prescribers can
potentially avoid adverse drug events, such as drug-to-drug allergies or interactions. In addition,
prescribers can use e-prescribing systems to look up and prescribe lower cost alternative drugs
listed on a patient’s formulary. A 2008 study indicated that, with access to formulary
information, doctors prescribed less costly medications, leading to an estimated savings of
$845,000 per 100,000 patients. 2

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003
The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
established the Medicare prescription drug program, known as Medicare Part D, which provides
optional drug benefits to Medicare beneficiaries. 3 CMS contracts with private health insurance
companies, or plan sponsors, to provide prescription drug coverage for beneficiaries who choose
to enroll in the program. Plan sponsors may offer prescription coverage as a stand-alone
prescription drug plan or as part of a managed care plan. 4 As of February 2009, approximately
26.6 million beneficiaries were enrolled in Medicare Part D. 5

The Medicare Part D E-Prescribing Program
The MMA established the Medicare Part D e-prescribing program. 6 For this program, CMS
requires plan sponsors to implement four e-prescribing standards to provide the technical
infrastructure that supports interoperable e-prescribing systems. A standardized technical
infrastructure enables plan sponsors, prescribers, and dispensers to exchange prescription
information with each other. Complete implementation of all four standards is necessary for

2 M. Fischer, et al., “Effect of Electronic Prescribing With Formulary Decision Support on Medication Use and
Cost.” Archives of Internal Medicine, 168 (22), pp. 2433–2439, 2008.
3 Title I of the MMA, P.L. No. 108-173; Part D of Title XVIII of the Social Security Act; 42 U.S.C. § 1395w-101
et seq.
4 MMA, P.L. No. 108-173 § 101(a); Social Security Act, § 1860D-1(a)(1); 42 U.S.C. § 1395w-101(a)(1).
5 CMS, “Total Medicare Beneficiaries With Prescription Drug Coverage,” 2009. Available online at

http://www.cms.hhs.gov/PrescriptionDrugCovGenIn/. Accessed on February 23, 2009.
6 MMA, P.L. No. 108-173 § 101(a); Social Security Act, § 1860D-4(e); 42 U.S.C. § 1395w-104(e).




OEI-05-08-00322      Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 3 – Charlene Frizzera


complete e-prescribing connectivity between plan sponsors, prescribers, and dispensers. CMS
required plan sponsors to completely implement two standards by January 2006 and the other
two standards by April 2009.

Beginning in 2010, plan sponsors will also be required to obtain prescription origin information
on new prescriptions to monitor the rate of adoption of e-prescribing in Medicare Part D. 7 The
Prescription Origin Code (POC) is a data field that will be populated by the pharmacist to
describe the method in which a prescription was received by the dispenser (i.e., paper, fax, or
electronic). Plan sponsors will obtain the POC data from dispensers and then submit them to
CMS for inclusion in Medicare Part D prescription drug event (PDE) data.

Plan Sponsor E-Prescribing Initiatives
While plan sponsors must implement CMS-defined e-prescribing standards, prescribers and
dispensers are not required to adopt or support e-prescribing. To encourage prescribers to adopt
e-prescribing, some plan sponsors offer e-prescribing initiatives, which include a combination of
technology items and services.

To address plan sponsor donations of e-prescribing items and services, the MMA required that
OIG establish an e-prescribing safe harbor rule to the antikickback statute, which prohibits
payment in return for patient referrals. 8 The safe harbor rule protects certain low-risk
arrangements that encourage prescriber adoption of e-prescribing. It allows plan sponsors,
among other health care entities, to provide prescribers with nonmonetary remuneration
including hardware, software, or information technology and training services necessary and
used solely to receive and transmit electronic prescription information. 9 For example, plan
sponsors can provide hardware, such as a personal digital assistant or computer. Plan sponsors
can also provide software that has e-prescribing functionality either as a stand-alone program or
as part of an electronic medical record.

Plan sponsors may choose to promote e-prescribing by providing prescribers and dispensers with
financial incentives. 10 According to the MMA, payment of financial incentives may take into
consideration the cost to implement an e-prescribing program and may also be given to
prescribers that have increased their formulary compliance, lowered drug costs, or reduced
potential drug interactions. 11

Plan sponsors’ financial incentives may include pay-to-participate, pay-for-performance, and
pay-per-transaction incentives. Pay-to-participate incentives are one-time grants given to
prescribers to assist with startup costs. Pay-for-performance incentives are bonuses paid to
prescribers for meeting specified e-prescribing metrics or outcomes. Pay-per-transaction
incentives are bonuses given to prescribers every time they e-prescribe.


7 CMS, “Issuance of the 2010 Call Letter,” 2009. Available online at
http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/2010CallLetter.pdf. Accessed on July 9, 2009.
8 MMA, P.L. No. 108-173 § 101(a); Social Security Act, § 1860D-4(e)(6); 42 CFR § 1001.952(x).
9 42 CFR § 1001.952(x).
10 MMA, P.L. No. 108-173 § 102(b); Social Security Act, § 1852(j)(7); 42 U.S.C. 1395w-22(j)(7).
11 Ibid.




OEI-05-08-00322     Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 4 – Charlene Frizzera


The Medicare Improvements for Patients and Providers Act of 2008
In other efforts to promote e-prescribing, the Medicare Improvements for Patients and Providers
Act of 2008 (MIPPA) stipulates that CMS offer financial incentives directly to prescribers. To
receive these incentive payments, CMS requires prescribers to meet specified e-prescribing
quality measures. 12 Financial incentives are available beginning in 2009 and will continue
through 2013. 13

METHODOLOGY

Scope
This memorandum report describes plan sponsors’ e-prescribing initiatives and implementation
strategies to promote e-prescribing adoption. It does not include information or results from the
Medicare e-prescribing incentive program.

Data Collection and Analysis
Between August and September 2008, we conducted an electronic survey of all plan year 2008
plan sponsors. We surveyed a total of 278 plan sponsors and received responses from 206 plan
sponsors for a 74-percent response rate. We identified plan sponsors using July 2008 Part D plan
sponsor data from CMS’s Health Plan Management System.

The surveys gathered descriptive information about plan sponsors’ initiatives. We asked plan
sponsors if they had or were planning an initiative to promote prescriber adoption of
e-prescribing and to describe their initiatives. We defined an initiative as a plan sponsor program
designed to promote e-prescribing that includes any combination of e-prescribing technology
items or services. We also asked plan sponsors to describe anything else they offered as part of
their initiatives. We refer to the combination of these elements as an initiative package in this
memorandum report.

We also asked plan sponsors about any quantifiable benefits that resulted from their initiatives.
We requested evidence of the claimed benefits when plan sponsors reported quantifiable benefits
resulting from their initiatives. If the plan sponsor could not provide evidence or we could not
verify the benefits, we excluded those claimed benefits from our analysis.

To determine prescriber participation in initiatives, we asked plan sponsors to report whether
they had low, average, or high participation in their initiatives. The categorization of low,
average, or high participation is based on the plan sponsor’s perception. We also asked them to
provide the specific number of prescribers participating in their initiatives.

To analyze participation in plan sponsor initiatives, we categorized plan sponsors into three
categories based on the number of beneficiaries they covered. We did this because participation
levels for initiatives are relative to a plan sponsor’s size. Table 1 shows the beneficiary ranges
we used to categorize plan sponsors.

12 MIPPA § 132, P.L. 110-275; Social Security Act, § 1848(m)(3); 42 U.S.C. § 1395w-4(m)(3); 73 Fed. Reg. 69726,
69847 (Nov. 19, 2008).
13 Ibid.




OEI-05-08-00322     Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 5 – Charlene Frizzera


           Table 1: Plan Sponsor Size Categories

            Plan Sponsor Size Category                             Number of Beneficiaries Covered by Plan Sponsor
            Small                                                                                          1–10,000
            Medium                                                                                  10,001–500,000
            Large                                                                                         500,000 +
           Source: OIG analysis of Part D plan sponsor enrollment data, 2009.



We also used survey data from a companion study, “Medicare Part D E-Prescribing Standards:
Early Assessment Shows Partial Connectivity” (OEI-05-08-00320), that we collected
simultaneously with data for this memorandum report. We have data from the previous study for
194 of the 206 respondents for this memorandum report. For these 194 plan sponsors we
assessed whether plan sponsors with an initiative also reported implementation of the CMS
e-prescribing standards.

Finally, we conducted structured in-person interviews with four plan sponsors that had
well-developed initiatives. We selected these plan sponsors based on their survey responses.
We defined well-developed initiatives based on the duration of the initiative and the number of
participating prescribers. In the interviews, plan sponsors described their initiatives and the
benefits and challenges they experienced.

Limitations
This report relies on self-reported data. Other than plan sponsors’ reported quantifiable benefits,
we did not verify plan sponsors’ responses.

Standards
This study was conducted in accordance with the “Quality Standards for Inspections” approved
by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Approximately 20 percent of plan sponsors have voluntary e-prescribing initiatives, which
most commonly include the provision of training and software
Twenty-one percent of plan sponsors (44 plan sponsors) reported that they have an initiative to
promote prescriber adoption of e-prescribing. Another 18 percent of plan sponsors (36 plan
sponsors) reported that they were planning to offer an initiative. Initiatives consist of any
combination of free or discounted software, hardware, Internet connectivity, financial incentives,
and educational materials (e.g., newsletters).

Although plan sponsors most commonly provide training and software, there is no prevailing
model for an initiative. Among the 44 plan sponsors with an initiative, there were 20 different
initiative packages. Initiative packages most commonly included one to three different elements,
but some had up to six different elements, such as hardware, software, training, and financial
incentives.




OEI-05-08-00322      Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
         Page 6 – Charlene Frizzera


         Despite the variety of initiative packages, two-thirds of plan sponsor initiative packages (29 plan
         sponsors) included a basic package of free or discounted training and software. Over half of
         planned initiatives (21 plan sponsors) will also include a basic package of training and software.
         Chart 1 shows the number and type of elements plan sponsors currently offer or plan to offer in
         their initiatives.

  Chart 1.
                                            70
Elements
   of Plan
                  Number of Plan Sponsors




                                            60
  Sponsor
Initiatives                                 50

                                            40

                                                                                                                                     Plan to
                                            30
                                                                                                                                     provide
                                                                                                                                     Currently
                                            20                                                                                       provide

                                            10

                                             0
                                                 Software      Hardware       Internet      Training       Financial   Educational
                                                                            Connectivity                  Incentives    Materials
                                                                               Initiative Elements


              Source: OIG analysis of survey data, 2009.



         Additional patterns emerged among plan sponsors’ initiative packages. The most frequent
         initiative package, offered by eight plan sponsors, includes training, software, and hardware.
         These are some of the most basic elements required to e-prescribe. If a prescriber already had
         Internet connectivity, these items and services would be sufficient for a prescriber to start
         e-prescribing.

         Sixteen plan sponsors with an initiative reported that they currently offer prescribers a financial
         incentive for e-prescribing. Thirteen of these plan sponsors reported offering
         pay-for-performance financial incentives to prescribers. Seven plan sponsors reported offering
         prescribers a combination of financial incentives. For example, some plan sponsors provided
         prescribers both pay-to-participate and pay-for performance incentives.

         Almost all plan sponsors with an initiative reported implementing some of the technical
         infrastructure to support e-prescribing but only one reported complete implementation. Almost
         all plan sponsors with an initiative (36 plan sponsors) reported implementing at least some of the
         standards that support the technical infrastructure to deliver e-prescribing information, such as
         medication history, eligibility, and formulary information to prescribers. Of the remaining eight
         plan sponsors with an initiative, four reported that they had not implemented any of the standards
         that support the technical infrastructure for e-prescribing and four did not provide information
         about their implementation.




         OEI-05-08-00322                           Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 7 – Charlene Frizzera


Among the 36 plan sponsors that reported some implementation, one plan sponsor reported
completely implementing all of the standards that support e-prescribing. The other 35 plan
sponsors with initiatives have not completely implemented all of the standards that support
e-prescribing.

Plan sponsors that have not completely implemented the four CMS-defined e-prescribing
standards do not completely support the technical infrastructure required for interoperable
e-prescribing systems. Plan sponsors’ e-prescribing systems must be interoperable to maximize
e-prescribing benefits. Plan sponsor systems that are not fully compliant with all e-prescribing
standards limit the types of e-prescribing information available to prescribers.

For more detail about plan sponsors’ implementation of e-prescribing standards, see OIG’s
companion report, “Medicare Part D E-Prescribing Standards: Early Assessment Shows Partial
Connectivity” (OEI-05-08-00320).

Over half of plan sponsors with an initiative reported average or high prescriber
participation in their initiatives
Twenty-seven plan sponsors with an initiative reported average or high levels of prescriber
participation in their initiatives. Small plan sponsors reported high prescriber participation more
often than medium or large plan sponsors. This may be because small plan sponsors interact
with fewer prescribers. Small plan sponsors can more easily reach their entire network of
prescribers compared to medium and large plan sponsors. Plan sponsors reported participation
ranging from 4 to 13,000 prescribers.

Some plan sponsors attributed their high levels of prescriber participation to implementation
strategies that they used to promote their initiatives. Some plan sponsors reported using
implementation strategies to reach more prescribers, including creating mandates for staff
physicians to use e-prescribing technology, tying other quality bonuses to e-prescribing,
extending a financial incentive to pharmacies, and partnering with other health care
organizations. In structured interviews, three plan sponsors with high prescriber participation
described their strategic approaches.

       Sierra Health Services
       Sierra Health Services (Sierra) offered all Nevada prescribers free, stand-alone
       e-prescribing software as part of its initiative to promote the adoption of e-prescribing.
       Only prescribers that were part of a large medical group owned by Sierra, Southwest
       Medical Associates (SMA), took advantage of the initiative. However, even with free
       software, SMA prescribers were slow to adopt e-prescribing.

       SMA increased e-prescribing in its practice by making two changes. First, SMA
       integrated e-prescribing into its electronic health record system. Second, SMA changed
       its prescriber bonus structure so that only prescribers who were 100-percent compliant
       with SMA’s e-prescribing program were eligible for bonuses. Within 1 month of this
       change, the number of e-prescriptions went from 0 to 80,000. As of September 2008,
       almost all prescriptions generated by SMA were electronic.



OEI-05-08-00322   Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 8 – Charlene Frizzera


           Blue Cross Blue Shield of Massachusetts
           Blue Cross Blue Shield of Massachusetts (BCBS-MA) is a founding member of the
           eRx Collaborative (Collaborative), a collaboration of three local health plans in
           Massachusetts. 14 The Collaborative’s initiative to promote the adoption of e-prescribing
           includes free stand-alone software, hardware, Internet connectivity, and staff training.
           BCBS-MA also offers its prescribers financial incentives based on e-prescribing use.

           The Collaborative rolled out its e-prescribing initiative in two phases. First, the
           Collaborative targeted high-volume and specialty prescribers (e.g., an allergist). The
           Collaborative found that more high-volume prescribers adopted e-prescribing than
           specialty prescribers. Specialty prescribers were less likely to adopt e-prescribing
           because they did not see patients regularly. Second, the Collaborative offered its
           initiative to any interested prescriber in Massachusetts.

           The Collaborative also invited two e-prescribing software vendors to help recruit
           prescribers to adopt e-prescribing. Because e-prescribing was a relatively new
           technology, software vendors gave in-office demonstrations and explained the features
           and benefits of e-prescribing. The Collaborative found this approach successful in
           recruiting prescribers to adopt e-prescribing.

           Since 2003, the Collaborative’s initiative has assisted more than 6,000 prescribers to
           adopt e-prescribing. In 2008, Collaborative prescribers transmitted more than 4 million
           electronic prescriptions. Collaborative prescribers have transmitted 17.8 million
           electronic prescriptions between 2003 and 2008.

           Within the BCBS-MA provider network, approximately 13 percent of prescriptions in
           2008 were electronic prescriptions, up from 5 percent in 2005. To further promote
           e-prescribing adoption, BCBS-MA announced that beginning in 2011, prescribers must
           e-prescribe to participate in any BCBS-MA physician incentive program.

           Blue Cross Blue Shield of North Carolina
           To extend its initiative’s reach, Blue Cross Blue Shield of North Carolina (BCBS-NC)
           partnered with a large medical group and the Community Care Network of North
           Carolina (CCN). CCN is an affiliation of medical group practices that includes
           physicians and pharmacists. BCBS-NC’s initiative includes free Web-based
           e-prescribing software, discounted hardware, Internet connectivity, training, and financial
           incentives.

           BCBS-NC also extended a one-time financial incentive for pharmacies to update their
           computer systems. BCBS-NC found that some prescribers stopped e-prescribing because
           pharmacies were not equipped to accept electronic prescriptions. BCBS-NC found that
           pharmacies were receptive to the financial incentive, which led to an increase in the
           number of pharmacies connected for e-prescribing. BCBS-NC reported that its efforts
           encouraged approximately 2,500 prescribers to e-prescribe in 2008.

14   The Collaborative was formed in 2003, before the creation of Medicare Part D plan sponsors.


OEI-05-08-00322        Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 9 – Charlene Frizzera


Seventy-five percent of plan sponsors with an initiative could not report the quantifiable
benefits of their initiatives because they did not measure outcomes
Thirty-three plan sponsors could not report any quantifiable benefits from their initiatives
because they did not measure the outcomes of their initiatives. Plan sponsors’ initiatives are
voluntary and there are no requirements to report outcomes. However, measuring the outcomes
of e-prescribing is the only way to determine whether e-prescribing leads to lower costs and
improved quality. Possible outcome measures may include increased generic substitution,
increased formulary compliance, or decreased medication errors.

Some plan sponsors reported that they did not measure outcomes because e-prescribing data
were not readily available, which hindered their ability to measure the impact of their initiatives.
Specifically, some plan sponsors reported that they do not have adequate data because their
metrics are under development or their prescription volume is too low to measure outcomes. In
structured interviews, two plan sponsors described obstacles to obtaining e-prescribing data and
measuring outcomes.

        BCBS-NC
        BCBS-NC reported difficulty obtaining e-prescribing data because prescribers
        participating in its initiative used different e-prescribing software platforms. Initially,
        BCBS-NC partnered with three e-prescribing vendors to offer e-prescribing software to
        prescribers. Limiting the vendor options helped BCBS-NC track e-prescribing volume
        because it only had to collect data from three vendors.

        In 2008, BCBS-NC pursued a vendor-neutral strategy so prescribers would have a wider
        choice of e-prescribing software. With so many vendors, BCBS-NC tried to obtain
        e-prescribing data from a single source, RxHub, 15 but the data were incomplete and
        inconsistent. Vendors have to undergo certification with RxHub to properly transmit
        e-prescribing data for reporting purposes, but BCBS-NC found that not all vendors had
        undergone certification. As a result, BCBS-NC had to coordinate data collection from
        multiple vendors and then manually aggregate the data. It had to contact several vendors
        for data and did not consistently receive data in a timely fashion.

        Inconsistent and incomplete e-prescribing data created two problems for BCBS-NC.
        First, BCBS-NC had trouble quantifying its e-prescribing benefits. BCBS-NC found that
        when data were collected from multiple vendors, the reporting of potentially avoided
        drug-drug allergy interactions was not consistent. The vendors often did not capture all
        of this information and many times were not able to report the number of prescription
        changes or cancellations that occurred as a result of the e-prescribing transaction.
        Second, inaccurate e-prescribing data complicated BCBS-NC’s ability to track
        prescribers who were eligible to receive financial incentives. BCBS-NC rewarded
        prescribers with a $1,000 bonus for viewing the medication history of 20 patients.
        Because of difficulty acquiring accurate data, BCBS-NC modified the financial incentive
        by rewarding prescribers that e-prescribed for 20 patients.

15 E-prescribing software systems query RxHub for medication history and formulary and benefits information from
plan sponsors.


OEI-05-08-00322      Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 10 – Charlene Frizzera


       Medco Health Solutions
       Medco Health Solutions (Medco) also reported problems obtaining e-prescribing data and
       measuring initiative outcomes. Prescribers participating in Medco’s Southeast Michigan
       E-Prescribing Initiative (SEMI) can choose software from several e-prescribing software
       vendors. Similar to BCBS-NC, Medco had to pursue several vendors for e-prescribing
       data. Medco could not aggregate the e-prescribing data because the software vendors did
       not have a uniform way to report e-prescribing information. Without consistent and
       complete e-prescribing data, Medco reported difficulty quantifying benefits of SEMI.
       Medco reported that pharmacy use of the POC would greatly improve its ability to track
       e-prescribing volume and benefits.

In the future, e-prescribing data may be more widely usable if pharmacies populate the POC
field. With accurate POC data, CMS and plan sponsors could get e-prescribing volume data
from PDE data. The accuracy of the POC data depends on accurate pharmacy entry, which may
be complicated by some pharmacy operations. For example, if an electronic prescription is
transferred from one pharmacy to another, the second pharmacy may not recognize it as an
electronic prescription and enter the wrong code in the POC field. Any inaccuracies in the POC
data may affect CMS’s ability to track e-prescribing.

Twenty-five percent of plan sponsors with an initiative reported that they measured for and saw
a quantifiable benefit. These 11 plan sponsors reported that they were able to track e-prescribing
volume and use the data to assess the impact of their initiative. Eight plan sponsors reported an
increase in generic substitutions and an increase in formulary compliance. Five plan sponsors
reported a decrease in medication errors as measured by the number of prescriptions changed
because of medication alerts. Two plan sponsors also reported cost savings from their initiatives.

CONCLUSION

Some plan sponsors have launched voluntary e-prescribing initiatives to increase prescriber
adoption of e-prescribing. As of September 2008, approximately 20 percent of plan sponsors
had an initiative and an additional 18 percent were planning an initiative. Although the
composition of plan sponsors’ initiatives varied, most offered free or discounted software and
training. Despite efforts to promote e-prescribing, not all plan sponsors with initiatives have
completely implemented e-prescribing standards, which may limit e-prescribing benefits.

Over half of plan sponsors with an initiative reported average or high prescriber participation
levels for their initiatives. Some plan sponsors attributed their high levels of participation to
implementation strategies they used to promote their initiatives. Some of these additional
strategies include creating mandates for staff physicians to use e-prescribing technology, tying
other quality bonuses to e-prescribing, extending a financial incentive to pharmacies, and
partnering with other health care organizations to reach more prescribers.

Most plan sponsors were unable to measure outcomes for their initiatives. Three-quarters of plan
sponsors with an initiative could not report a quantifiable benefit because they did not measure
outcomes for their initiatives. Plan sponsors that were able to measure outcomes from their
initiatives reported an increase in generic substitution and formulary compliance.


OEI-05-08-00322   Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
Page 11 – Charlene Frizzera


This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer to
report OEI-05-08-00322 in all correspondence.




OEI-05-08-00322   Medicare Part D Plan Sponsor Electronic Prescribing Initiatives
